                                 August 26, 2005




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations

                          Jesse L. Funches
                          Chief Financial Officer



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  MEMORANDUM REPORT: REVIEW OF NRC’S
                          APPLICATION OF THE OFFICE OF MANAGEMENT
                          AND BUDGET’S (OMB) PROGRAM ASSESSMENT
                          RATING TOOL (PART) (OIG-05-A-15)


As part of the Office of the Inspector General’s (OIG) audit of NRC’s
Decommissioning Program, OIG examined aspects of NRC’s approach to
applying the PART. NRC’s FY 2006 performance plan identified
Decommissioning and Low-Level Waste as a program scheduled to be reviewed
using PART for Budget Year 2008. Because this program will be subject to a
PART review, agency managers requested OIG to review the decommissioning
program. In reviewing the decommissioning program, OIG agreed to use the
PART guidance as the basis for the review. OIG reviewed PART submittals
prepared by NRC programs, compared portions of these submittals, and
interviewed NRC staff involved in completing PART reviews.

BACKGROUND

Under the Government Performance and Results Act of 1993 (GPRA), Federal
agencies are required to schedule, conduct, and report on program evaluations
in selected areas. The Office of Management and Budget (OMB) developed the
Program Assessment Rating Tool (PART) to assess and improve program
performance so that the Federal government can achieve better results and to
help inform funding and management decisions. PART builds on GPRA by
encouraging agencies to integrate operational decisions with strategic and
performance planning. To decide which programs will be reviewed using the
PART for the coming year, agencies and OMB work together.
PART is a diagnostic tool intended to systematically and consistently assess the
performance of program activities across the Federal government. It is
comprised of a series of questions, divided into four sections. Each section and
its associated objective are summarized below.

      Program Purpose & Design - Assesses whether the program's purpose
       and design are clear and sound.
      Strategic Planning - Assesses whether the program has valid long-term
       and annual measures and targets.
      Program Management - Rates agency management, including financial
       oversight and program improvement efforts.
      Program Results/Accountability - Rates program performance on
       measures and targets reviewed in the strategic planning section and
       through other evaluations.

Five NRC programs have been reviewed using PART and scored by OMB. Four
programs received an OMB rating of “Effective.” One received a rating of
“Moderately Effective.” To receive a rating of “Effective,” a program must receive
an OMB score greater than 85. According to briefing slides on the PART
process prepared by OCFO staff, 15% or fewer federal government programs
reviewed using PART have scored greater than 85 from FY 2002 through FY
2004. The table below lists the NRC programs reviewed using PART, the year in
which NRC conducted the review, and the rating awarded by OMB.


                                    Table 1


                                                    Year PART
  Program                                            Review       OMB
                                                    Completed    Rating
  Reactor Oversight Process                         FY 2003   Effective
  Fuel Facilities Licensing and Inspection          FY 2003   Effective
  Nuclear Materials Users Licensing and             FY 2004   Effective
  Inspection
  Spent Fuel and Transportation                     FY 2005       Effective
                                                                  Moderately
  Reactor Licensing Program                         FY 2005       Effective

RESULTS

While NRC’s programs have historically scored well on PART reviews, OIG
observed inconsistencies in the Agency’s approach. Specifically, NRC does not
have agency-wide guidance for applying the PART to its programs to assure
consistency in PART submittals. OCFO staff believes OMB’s PART guidance is


                                        2
adequate and, while the roles and responsibilities for conducting PART reviews
at NRC needs to be documented, additional detailed PART guidance specific to
NRC is not necessary. OCFO staff said that it would be counter productive to
develop detailed PART guidance specific to NRC when PART guidance changes
from one year to another. Rather, OCFO works closely with program staff
scheduled for upcoming PART reviews to share lessons learned.

NRC’s Management Directive (MD) 4.7, Long-Range Planning, Budget
Formulation and Resource Management, last updated October 1989, is the
logical place for NRC to establish agency-specific PART guidance. While NRC
first implemented PART in FY 2003, they have not updated this policy to define
roles and responsibilities for PART. Staff told OIG that NRC is currently working
to revise this management directive to define the roles and responsibilities for the
Agency’s Planning, Budget and Performance Management process. The revised
management directive will define, at a high level, the roles and responsibilities for
conducting PART reviews at NRC.

Without agency-wide guidance for conducting PART reviews, some NRC
program staff interpreted and applied OMB guidance differently and no standard
practice exists for gaining management concurrence to assure consistency and
quality of PART submittals. Furthermore, --

       ¾ information contained in NRC PART submittals may be viewed as
         inconsistent by an OMB evaluator (i.e., interpretation of the term
         “partner” as discussed below);
       ¾ program staff may re-create information for some PART questions that
         could have the same or similar answer from program to program (e.g.,
         as discussed below, PART question 4.4 states, “Does the performance
         of this program compare favorably to other programs, including
         government, private, etc., with similar purpose and goals?”); and
       ¾ program status may not be portrayed accurately (i.e., an NRC answer
         of to a “large extent,” when the agency’s response does not support
         “large extent”).

For instance, decommissioning program staff interpreted the term ”partner” used
in one PART question differently from another NMSS program. PART question
2.5 states, ”Do all partners (including grantees, sub-grantees, contractors, cost-
sharing partners, and other governmental partners) commit to and work toward
the annual and/or long-term goals of the program?” The decommissioning
program staff does not consider Agreement States as a partner, but another
NMSS program does. While Agreement States may not qualify as a partner for
all NRC programs, an agency-wide approach to this question may be beneficial
to minimize potential conclusions by OMB evaluators that NRC’s answers are
inconsistent.




                                          3
Also, other NRC programs applying PART could use the same or similar answers
to some questions. For example, PART question 4.4 states, ”Does the
performance of this program compare favorably to other programs, including
government, private, etc., with similar purpose and goals?” In the FY 2003
Program Evaluation, the decommissioning program answered, to a “large
extent”, with the following explanation—

      ”No other Federal programs are similar enough to compare. Although
      DOE [Department of Energy] and EPA [Environmental Protection Agency]
      are responsible for similar radiological remediation activities, both have
      different statutory and regulatory frameworks and different sites with site-
      specific challenges. Thus, comparisons have not been done and would
      not be meaningful.”

However, another NMSS program answered this question, to a “small extent”.
That program’s explanation noted that EPA with its oversight of the chemical
industry has similar purposes and goals. It stated—

      “Although we have not benchmarked our performance with respect to the
      chemical industry, and the associated chemical and safety hazards,
      NRC’s safety record with respect to radiation hazards as evidenced by our
      strategic goal measure results, compare favorably to other programs”

NRC’s decommissioning program could make a similar argument. Furthermore,
the argument regarding dissimilarity between NRC’s decommissioning program
and EPA due to different regulatory framework could also apply to the other
NMSS program and EPA.

Furthermore, it is not clear why one program that states ,”. . . comparisons have
not been done and would not be meaningful,” assigns an answer of “large
extent,” while another program assigns “small extent” when the program states
that “Although we have not benchmarked our performance . . . NRC’s safety
record . . . compare[s] favorably to other programs”

CONCLUSION
Without agency-specific guidance to assure consistency in applying the PART
and to provide a common interpretation of OMB guidance, the value of PART to
NRC as a tool for making continuous program improvements and informing
management and budget decisions could be diminished.




                                        4
SCOPE/CONTRIBUTORS
We evaluated portions of three NRC PART submittals, a self-assessment of
NRC’s decommissioning program that partially applied the PART, discussed
NRC’s approach to applying PART with staff experienced in its application and
with OCFO staff. Additionally, we reviewed agency documents, including NRC
Management Directive, 4.7, NRC Long-Range Planning, Budget Formulation and
Resource Management, and briefing materials used by OCFO staff to kick off
PART reviews. The review was conducted by Deb Lipkey, Sr. Management
Analyst and Andrew Blanco, Engineer.

If you have any questions or concerns regarding this report, please contact
Anthony Lipuma, Team Leader, at 415-5910 or me at 415-5915.

cc:   Chairman Diaz
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons




                                        5
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
  Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
  and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Acting Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                       6
